NO. 19-230
IN THE SUPREME COURT OF THE UNITED STATES
DOUGLAS PRADE
Petitioner
“yg
THE STATE OF OHIO

Respondent

 

CERTIFICATE OF COMPLIANCE

 

I, Jacquenette S. Corgan, hereby certify that the Brief in Opposition to
Petition for Writ of Certiorari in Prade v. Ohio, No. 19-230, complies with the word:
count provisions set forth in Supreme Court Rule 33.1(h). The brief contains 7,896
words, excluding parts of the brief that are exempted by Rule 33.1(d).

SHERRI BEVAN WALSH
Prosecuting Attorney

JACQ TTE S. CORGAN
Assistant Prosecuting Attorney
Counsel of Record

Appellate Division

Summit County Safety Building
53 University Avenue, 6' Floor
Akron, Ohio 44308

(330) 643-2800

Ohio Reg. No. 0072778
jeorgan@prosecutor.summitoh.net

COUNSEL FOR RESPONDENT
